      Department of Homeland Security



     Costs Claimed by the Chicago Transit Authority
      for the Subway Security and SCADA Project –
    Video Analytics and Intrusion Detection, and the
    Public Transport Anti-Terrorism Team Program,
          Grant Numbers 2009-RA-RI-0106 and
                     2009-RA-RI-0093




            American Recovery and Reinvestment Act of 2009



OIG-13-12                                                    December 2012

                    OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                   December 4, 2012



MEMORANDUM FOR: 	             David J. Kaufman
                              Acting Assistant Administrator
                              Grant Programs Directorate
                              Federal Emergency Management Agency

FROM:                         	 nne L. Richards
                              A
                              Assistant Inspector General for Audits

SUBJECT: 	                    Costs Claimed by the Chicago Transit Authority for the
                              Subway Security and SCADA Project – Video Analytics and
                              Intrusion Detection, and the Public Transport Anti-Terrorism
                              Team Program, Grant Numbers 2009-RA-RI-0106 and
                              2009-RA-RI-0093

Attached for your information is our final letter report, Costs Claimed by the Chicago
Transit Authority for the Subway Security and SCADA Project – Video Analytics and
Intrusion Detection, and the Public Transport Anti-Terrorism Team Program, Grant
Numbers 2009-RA-RI-0106 and 2009-RA-RI-0093. Since the report contains no
recommendations to the Federal Emergency Management Agency, we did not solicit
formal comments, and no further response to this report is necessary.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Richard T. Johnson, Director of Immigration and
Enforcement; Paul Streit, Audit Manager; Kathleen Hyland, Auditor in Charge; Falon
Newman-Duckworth; Program Analyst; and Cheryl Jones, report referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Background
   The AmericanfRecoveryfandfReinvestmentfActfoff2009, as amended, (Recovery Act)
   appropriated $610 million to the Federal Emergency Management Agency (FEMA). Of
   that amount, the Recovery Act allocated $150 million for Public Transportation Security
   Assistance and Railroad Security Assistance (hereinafter referred to as Transit Security
   Grants) of the ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff2007.

   The Department of Homeland Security Transit Security Grant Program (TSGP) focuses on
   the use of visible, unpredictable deterrents to reduce risk to transit systems. Transit
   Security Grants fund capital projects including Multi-User High-Density Key
   Infrastructure Protection, Single-User High-Density Key Infrastructure Protection, Key
   Operating Asset Protection, and other mitigation activities. These construction grants
   pay for infrastructure improvements such as installation of anti-terrorist barriers at
   tunnel entrances and security systems for underground and underwater infrastructure.
   In addition, Transit Security Grants also fund canine, mobile explosives detection
   screening, and anti-terrorism teams. FEMA allocated $72.2 million to four transit
   security capital projects and $77.8 million to 15 transit security terrorist teams.

   On July 31, 2009, FEMA awarded $4,869,000 in TSGP funding to the Chicago Transit
   Authority (CTA) under grant number 2009-RA-RI-0093 to create three new Chicago
   Police Department anti-terrorism teams to be assigned to the department’s Public
   Transportation Unit. Each team contains 4 police officers, for a total of 12 officers.
   Funding was to be used for officer salaries, fringe benefits, training, and support costs
   for a 36-month period. The grant specified a period of performance from August 1, 2009,
   to July 31, 2012, and as of June 11, 2012, FEMA had reimbursed the CTA for $3,286,698.

   In addition, on September 29, 2009, FEMA awarded $6,944,528 in TSGP funding to the
   CTA under grant number 2009-RA-RI-0106, to design and implement a comprehensive
   Subway Security and Supervisory Control and Acquisition System (SCADA) in the CTA’s
   underground and underwater subway infrastructure system. The project includes the
   use of closed-circuit television cameras, digital video recorders, passive and active
   intrusion and object detection, access control, and communication network elements to
   support the security system. It is a continuation of the CTA’s efforts to implement
   security systems at rail stations, facilities, yards, and rights-of-way to provide a safe and
   secure environment for CTA riders and employees. The grant specified a period of
   performance from September 1, 2009, to August 31, 2012, and as of May 2, 2012, FEMA
   had reimbursed the CTA for $3,221,862.

   Under the terms of the grants, the CTA and the Chicago Police Department are required
   to comply with FEMA’s GuidancefandfApplicationfKit, Office of Management and Budget

www.oig.dhs.gov                                  2                                        OIG-13-12
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   (OMB) Circular A-87, and the grant requirements in 44 Code of Federal Regulations Part
   13.

   TSGP recipients must also comply with OMB Circular A-133 and Recovery Act provisions
   for submitting quarterly recipient reports to the Federal Government on the use of
   Recovery Act funds; paying prevailing wages as determined by the Secretary of Labor;
   and using American-made iron, steel, and manufactured goods.1 The objective of this
   audit was to determine whether costs claimed were allowable, allocable, and
   reasonable according to the grant agreement and applicable Federal requirements.

   Results of Audit
   We determined that the CTA expended $6,508,560 in TSGP funding to enhance subway
   security in a manner that was allowable, allocable, and reasonable. We also determined
   that the CTA was compliant with Recovery Act and grant agreement requirements
   governing the submission of quarterly Recovery Act reports and the accounting of all
   eligible/applicable acquisitions, payroll, and indirect costs.

   Compliance With Requirements for Reporting, Equipment Acquisition, Wages, and
   Indirect Costs

   Section 1512 of the Recovery Act requires recipients to submit quarterly reports to the
   Federal Government that include information on funds received and expended, project
   activities, and the number of jobs created and retained. Section 1605 of the Recovery
   Act stipulates that recipients use American-made iron, steel, and manufactured goods.
   Section 1606 of the Recovery Act requires recipients to pay laborers and mechanics on
   the project at rates not less than prevailing wages in the locality. We confirmed that the
   CTA complied with Recovery Act.

   Grant number 2009-RA-RI-0093 allows the Chicago Police Department to create three
   new Anti-Terrorism Teams to be assigned with the Public Transportation Unit. These
   teams consist of 4 police officers per team for a total of 12 officers. Funding was
   awarded for salaries, fringe benefits, training, and support costs for 36 months. We
   determined that the CTA complied with the grant agreement by ensuring that payroll,
   including fringe benefits, was in compliance with the grant agreement, and amounts
   claimed were eligible for reimbursement.

   Grant number 2009-RA-RI-0106 is for the design and implementation of a
   comprehensive Subway Security and SCADA in the CTA’s underground and underwater

   1
       OMB Circular A-133 Revised, AuditsfoffStates,fLocalfGovernments,fandfNonprofitfOrganizations.

www.oig.dhs.gov                                         3                                              OIG-13-12
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   subway infrastructure system. The project includes the use of closed-circuit television
   cameras, digital video recorders, passive and active intrusion and object detection,
   access control, and communication network elements to support the security system.
   We determined that the CTA complied with the grant agreement by ensuring that
   overhead and acquisitions were in compliance with the grant agreement and that
   amounts claimed were eligible for reimbursement.

   The CTA submitted timely quarterly reports on project activities to FEMA and ensured
   that projects were accomplished with American-made manufactured goods, and that
   laborers were paid at prevailing wages. In addition, the CTA was compliant with
   Recovery Act and grant agreement requirements governing the accounting of all
   eligible/applicable acquisitions, payroll, and indirect costs. We are making no
   recommendations.




www.oig.dhs.gov                                4                                       OIG-13-12
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed were allowable,
   allocable, and reasonable according to the grant agreement and applicable Federal
   requirements. This audit covered costs of $6,508,560 incurred by the CTA from
   August 2009 to April 2012.

   In conducting our audit, we—

   •	 Obtained and reviewed the Recovery Act, the grant application and award, the grant
      GuidancefandfApplicationfKit, and Federal cost principles and grant administrative
      requirements;

   •	 Interviewed CTA personnel to gain an understanding of their accounting system, and
      reviewed applicable internal controls;

   •	 Examined all invoices and other evidence supporting 100 percent of FEMA project
      costs;

   •	 Reviewed 100 percent of accounting transactions related to purchases, payments,
      and receipt of FEMA reimbursements;

   •	 Used the grant provisions and applicable Federal requirements to determine
      whether amounts claimed were eligible for reimbursement;

   •	 Performed fraud detection procedures;

   •	 Inspected the CTA observation station and surrounding property; and

   •	 Obtained and reviewed source documents to determine that the CTA complied with
      requirements for reporting, competitive acquisition, and procurement of equipment
      applicable to the grant, and that payroll and indirect costs were correct and in
      compliance with the grant agreement.


www.oig.dhs.gov                               5	                                      OIG-13-12
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   We conducted this performance audit between June and September 2012 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              6                                      OIG-13-12
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Recovery Act Coordinator
   Administrator, Federal Emergency Management Agency
   Audit Liaison Office, Federal Emergency Management Agency

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             7                              OIG-13-12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
